WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-7637
DERRICK C. JAMES, DC # 536293 STATE OF FLORIDA DEPT OF CORREG
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Iam filing this waiver on behalf of all respondents.
© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Florida Dept. of Corrections
|
Please check the appropriate box:
© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
oO lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Dux, 8 lox? Date: 2021.05.04 11:37:17 -04'00"

Date: 5/4/21

(Type or print) Name (Beverly B. Brewster

O m. © Ms. O Mrs. O Miss
Firm Florida Dept. of Corrections |
Address 501 S. Calhoun St.
City & State Tallahassee, Fla Zip 32399
Phone 850-717-3614 Email Beverly.Brewster@fdc.myflorida.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Derrick G. James, DC # 536293, South Bay Correctional Facility, 600 US Highway 27 South, |
ce; South Bay, Florida 33493
